     Department of Homeland Security




      FEMA Hazard Mitigation Grant Program Funds
      Awarded to Wichita Public School District #259,
                     Wichita, Kansas




DD-12-07                                           April 2012

                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                                                            Security
                                  APR     4 2012

MEMORANDUM FOR:
                                                               VII


FROM:
                              Assistant Inspector General
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA Hazard Mitigation Grant Program Funds Awarded to
                              Wichita Public School District #259, Wichita, Kansas
                              FEMA Disaster Number 1699-DR-KS
                              Audit Report Number DD-12-07

We audited Hazard Mitigation Grant Program (HMGP) funds awarded to Wichita Public School
District #259 (Wichita) in Wichita, Kansas. Our audit objectives were to determine whether
Wichita accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to federal regulations and FEMA guidelines, the project met FEMA eligibility
requirements, and project management complied with project management requirements.

The Kansas Division of Emergency Management (KDEM), a FEMA grantee, awarded Wichita
$13.4 million ($10.0 million federal share) following the severe storms, tornadoes, and flooding
that occurred between May 4, and June 1,2007, for the design and construction of 16 school
tornado safe rooms. FEMA awarded the funds according to FEMA's Mitigation Interim Policy
MRR-2-07-1, Hazard Mitigation Assistance for Safe Rooms.

The award provided FEMA funding for 75% of eligible project costs. At the time of our audit,
Wichita had completed 3 of the 16 school tornado safe rooms. The audit covered the period
from the project submittal in September 2008 to our audit cutoff date in September 2011.
During this time, Wichita claimed $6.7 million in direct project costs. We audited $3.2 million
of the costs claimed for eight safe rooms, which were reported to be at least 80% complete.

We conducted this performance audit between September 2011 and March 2012 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objectives. We conducted this audit
according to the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.

We interviewed FEMA, KDEM, and Wichita officials; reviewed project costs incurred as of
September 2011 for eight safe rooms judgmentally selected based on percentage of completion;
and performed other procedures considered necessary to accomplish our objectives. We did not
assess the adequacy of Wichita’s internal controls applicable to grant activities because it was
not necessary to accomplish our audit objectives. However, we did gain an understanding of
Wichita’s methods of accounting for project-related costs and its procurement policies and
procedures.


                                        BACKGROUND

FEMA provides HMGP grants on a cost-shared basis to eligible applicants within a state
declared eligible for federal assistance to implement measures designed to reduce the loss of life
and property from natural disasters. FEMA’s eligibility criteria require that an applicant have a
FEMA-approved hazard mitigation plan and that projects be cost effective, comply with
environmental and historic preservation requirements, and provide a long-term beneficial impact.
Eligible applicants include state and local governments, certain private nonprofit organizations
and institutions, and Indian tribes or tribal organizations.


                                     RESULTS OF AUDIT

Wichita accounted for and expended FEMA funds according to federal regulations and FEMA
guidelines; the project met FEMA eligibility requirements; and project management complied
with applicable regulations and guidelines.


                           DISCUSSION WITH MANAGEMENT

We discussed the results of our audit with FEMA, KDEM, and Wichita officials during our
audit. We also provided a draft report in advance to these officials and discussed it at exit
conferences held with FEMA and KDEM on February 15, 2012, and Wichita on February 14,
2012. Because the audit did not identify issues requiring further action from FEMA, we consider
this audit closed and do not require a response.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were Tonda Hadley,
Moises Dugan, William Lough, and Patricia Epperly.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.



                                                2

cc:   Administrator, FEMA
      Director, Risk Management and Compliance, FEMA Office of Chief Financial Officer
      Audit Liaison, FEMA (Job Code G-11-065)
      Audit Liaison, FEMA Region VII
      Audit Liaison, DHS




                                           3

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
